<html>
<title> - THE TOXIC SUBSTANCES CONTROL ACT AND PERSISTENT, BIOACCUMULATIVE, AND TOXIC CHEMICALS: EXAMINING DOMESTIC AND INTERNATIONAL ACTIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







 THE TOXIC SUBSTANCES CONTROL ACT AND PERSISTENT, BIOACCUMULATIVE, AND 
     TOXIC CHEMICALS: EXAMINING DOMESTIC AND INTERNATIONAL ACTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2010

                               __________

                           Serial No. 111-102




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-014                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
        Subcommittee on Commerce, Trade, and Consumer Protection

                        BOBBY L. RUSH, Illinois
                                  Chairman
JANICE D. SCHAKOWSKY, Illinois       CLIFF STEARNS, Florida
    Vice Chair                            Ranking Member
JOHN SARBANES, Maryland              RALPH M. HALL, Texas
BETTY SUTTON, Ohio                   ED WHITFIELD, Kentucky
FRANK PALLONE, New Jersey            GEORGE RADANOVICH, California
BART GORDON, Tennessee               JOSEPH R. PITTS, Pennsylvania
BART STUPAK, Michigan                MARY BONO MACK, California
GENE GREEN, Texas                    LEE TERRY, Nebraska
CHARLES A. GONZALEZ, Texas           MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina
JOHN BARROW, Georgia
DORIS O. MATSUI, California
KATHY CASTOR, Florida
ZACHARY T. SPACE, Ohio
BRUCE L. BRALEY, Iowa
DIANA DeGETTE, Colorado
JOHN D. DINGELL, Michigan (ex officio)













                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
    Prepared statement...........................................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    11
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    13
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    13
Hon. Steve Scalise, a Representative in Congress from the State 
  of Louisiana, opening statement................................    14
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    15
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    16
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    17
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................    83
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, prepared statement....................................    85

                               Witnesses

Jim Jones, Deputy Assistant Administrator, Office of Prevention, 
  Pesticides and Toxic Substances, Environmental Protection 
  Agency.........................................................    19
    Prepared statement...........................................    22
    Answers to submitted questions...............................   135
John Thompson, Division Director, Office of Environmental Policy, 
  Bureau of Oceans, Environment and Science, Department of State.    28
    Prepared statement...........................................    30
Linda Greer, Director, Health and Environment Program, Natural 
  Resources Defense Council......................................    35
    Prepared statement...........................................    38
Christina Cowan-Ellsberry, CE2 Consulting, Former Principal 
  Scientist, Environmental Sciences Department, Procter and 
  Gamble.........................................................    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   158
Ted Sturdevant, Director, Department of Ecology, State of 
  Washington.....................................................    53
    Prepared statement...........................................    55
    Answers to submitted questions...............................   153
William J. Adams, Chairman, North American Metals Council........    63
    Prepared statement...........................................    65
    Answers to submitted questions...............................   167

                           Submitted Material

Committee Memorandum.............................................    87
Letter of February 23, 2010, from Safer Chemicals Healthy 
  Families to Subcommittee.......................................    93
Letter of March 3, 2010, from Environmental Working Group to 
  Subcommittee...................................................   110
Letter of March 2, 2010, from the National Council of Churches to 
  Subcommittee...................................................   114
Letter of March 3, 2010, from Pesticide Action Network to 
  Subcommittee...................................................   116
Letter of February 18, 2010, from American Public Health 
  Association Subcommittee.......................................   118
Letter of March 3, 2010, from American Chemistry Council to 
  Subcommittee...................................................   120
Statement of National Petrochemical & Refiners Association.......   132

 
 THE TOXIC SUBSTANCES CONTROL ACT AND PERSISTENT, BIOACCUMULATIVE, AND 
     TOXIC CHEMICALS: EXAMINING DOMESTIC AND INTERNATIONAL ACTIONS

                              ----------                              


                        THURSDAY, MARCH 4, 2010

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:16 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Bobby L. 
Rush [Chairman of the Subcommittee] presiding.
    Members present: Representatives Rush, Schakowsky, 
Sarbanes, Sutton, Green, Barrow, DeGette, Dingell, Whitfield, 
Radanovich, Pitts, Gingrey, Scalise, and Barton (ex officio).
    Staff present: Michelle Ash, Chief Counsel; Rebecca Brown, 
EPA Fellow; Will Cusey, Special Assistant; Daniel Hekier, 
Intern; Angelle Kwemo, Counsel; Timothy Robinson, Counsel; 
Lindsay Vidal, Special Assistant; Jerry Couri, Minority Senior 
Professional Staff; Sam Costello, Minority Legislative Analyst; 
Shannon Weinberg, Minority Counsel; Brian McCullough, Minority 
Senior Professional Staff; Robert Frisby, Minority FTC 
Detailee; and Will Carty, Minority Professional Staff.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The hearing is called to order. This hearing is 
called for the purpose of discussing the matter of TSCA and the 
hearing is entitled the Toxic Substances Control Act and 
Persistent, Bio-Accumulative, and Toxic Chemicals: Examining 
Domestic and International Actions, and the chair recognizes 
himself for 5 minutes.
    I want to welcome all of you who are here this morning to 
participate in today's hearing on the Toxic Substances Control 
Act and specific efforts that have been, or need to be, taken 
to protect public health, and the environment, from a diverse 
array of toxic substances.
    Our focus today is on a special group of chemicals known as 
PBTs that pose unique risks to human health and environment 
safety. Even at a very low exposure and concentration levels in 
our communities, our homes, our workplaces and the environment, 
PBTs have been linked to adverse health effects in humans and 
in animals. Some of the effects include cancers, and some 
include genetic mutations, and some include the disruption of 
normal biological, neurological and hormonal functions of our 
bodies.
    Examples of commonly known PBTs include unwanted wastes 
like mercury and dioxins. The list also includes pesticides 
like DDT and HCB. DDT, as most of you know, is a well-known 
synthetic pesticide. Also included in this list of potential 
toxins is HCB or hexachlorobenzene and other industrial 
chemicals, such as PCBs and heavy metal including cadmium, and 
mercury and lead.
    The way I understand PBTs is to think of them in the 
following way, and generally speaking the P, or persistence, 
relates to environmental safety. Persistent pollutants or 
toxins are not biodegradable. That means that these chemicals 
do not break down easily in the environment. You can think of 
them in the way you think of--I like to think of them as 
unwelcome house guests who don't know when it is time to leave.
    The B stands for bioaccumulative or bioaccumulation and it 
relates to human health and to the environment. Following their 
release into the environment, some of these substances 
concentrate in rising proportions in soils, sediments, water 
and in the air. Over time, these concentration levels rise 
continually within, and to the top of, the human food chain.
    And the T, which stands for toxic or toxins, relates to 
human health. Toxic substances lead to adverse health effects, 
such as the ones I described earlier.
    What is also important to remember is that these are not 
mutually exclusive categories. While it can be presumed that a 
chemical substance which displays all three characteristics is 
especially harmful, a chemical substance or a mixture can 
display just one of the three characteristics, that is, it can 
be persistent, bioaccumulative or toxic to human health. These 
substances are capable of traveling great distances on air or 
in oceanic currents.
    Last year, I had the honor of receiving a delegation of 
indigenous peoples from the Savoonga and Gambell nations. These 
representatives were from two member tribes of the National 
Congress of American Indians. They told my staff of serious 
public health issues they are experiencing as a result of 
pollutants, particularly legacy chemicals such as PBDEs 
[polybromodiphenyl ethers] and PFCs [perflourinated compounds], 
that have blown and crested onto St. John's Island.
    At our last hearing on TSCA in November, 2009, we discussed 
the need for including a prioritizing scheme in our soon-to-be-
introduced bill, which will make critical reforms to the 
existing 33-year-old statute. Under this scheme, the 
Environmental Protection Agency's chemical risk and safety 
assessment responsibilities would be radically streamlined. 
With this new authority, the EPA will be able to take much 
swifter action to reduce the volume of especially threatening 
substances that are already in the commercial stream, that are 
in our bodies, and that are in our food and water sources.
    I am pleased to welcome all six of our witnesses to this 
subcommittee this morning. The common thread through all of 
their testimonies is, obviously, PBTs. Today, each one of them 
will talk about the PBT problem and how to go about addressing 
it from their perspectives as government regulators, policy 
makers, public interest and health advocates, and from the 
perspective of the industry. Each of these witnesses is 
prepared to testify and answer questions about PTC regulation 
and remediation by assessing the regulatory lay of the land, 
and meaning that the State and Federal levels are of concern to 
them and, of course, the impact of these chemicals on our 
planet. We have got just this one planet here and we got to be 
concerned about it, and we got to protect it, and we got to 
make sure that it will be around for a long, long, long time. 
It is a gift to us and we have got our responsibility to be 
able to pass it on a healthy path to generations to come.
    And I want to thank you and I yield back the balance of my 
time.
    And now I will recognize the ranking member from this 
subcommittee, my friend, the gentleman from Kentucky, Mr. 
Whitfield, for 5 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Chairman Rush, thank you very much for 
holding this hearing on the Toxic Substances Control Act.
    Today we will explore what many believe are the most 
generous chemicals, PBTs. These are chemicals and substances 
that are long-lasting and can build up in the food chain to 
levels that present threats to humans and the environment. We 
must take steps, obviously, the ensure Americans and the 
environment are as safe from these hazardous chemicals as 
possible but I also firmly believe that high-quality science, 
that is science that is measurable, reliable, relevant and that 
can be reproduced should lead the way for whatever reforms this 
Congress makes to current law.
    Mr. Chairman, I understand that at some point it is your 
intention to move legislation to reform TSCA. I am pleased that 
you are going to do that and I hope that we on this side of the 
aisle have an opportunity to work with you and your staff as 
you write this legislation.
    With that said, it is my hope that any action we do take 
does not have adverse consequences similar to those that the 
toy bill has had. We need to recognize the nuances of the 
science and give importance to exposure and risk data, not just 
hazards.
    When this committee applied a precautionary ethos to the 
Consumer Product Safety Improvement Act, we closed down many 
small businesses because they simply cannot meet the 
requirements that we insisted upon. And I might also mention 
that in an op-ed piece in the Wall Street Journal this past 
Christmas season, a former colleague of ours now a commissioner 
at the CPSC, Consumer Protection, said that the new law reduced 
the Consumer Product Safety Commission's longstanding 
discretion to act in response to genuine risks, substituting 
instead the rigid broad brush and unscientific judgment of 
Congress. As we have seen, good intentions do not always lead 
to good results and I will simply urge that we continue to heed 
the lessons learned from the particular law.
    I do look forward to hearing today from our witnesses, all 
of who are experts in their field, as we try to delineate 
between organic and inorganic PBTs, as we look at how 
widespread and effective are the States that are working in 
this area. And then, of course, I think it is imperative that 
we also explore our international leadership and the fact that 
a number of important treaties that we are signatories have not 
been affirmed or confirmed by the U.S. Senate.
    Mr. Chairman, while it has been over 3 decades since this 
law has been reformed, I again would like to stress the 
importance that we examine the issues carefully before we make 
sweeping changes that could adversely impact commerce, 
innovation and, of course, public and environmental health. We 
approach this subject with the very best of intentions and 
particularly in today's economic downturn I think that it is 
particularly important that we be mindful of the impact that 
any actions we may take on the job market.
    And I yield back the balance of my time. Thank you.
    Mr. Rush. The chair now recognizes my friend, my colleague 
from Illinois, the vice chairman of the subcommittee, Ms. 
Schakowsky for 2 minutes for the purposes of opening 
statements.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman, for holding this 
important hearing.
    This is the third we have held in the 111th Congress on the 
Toxic Substances Control Act and I look forward to working with 
you and Chairman Waxman on reforming the law so that it 
protects our community from harmful products, from harmful 
pollutants. When Congress passed TSCA, it's intention was to 
give EPA the tools it needed to protect the public from 
exposure to toxic chemicals that cause serious harm, however, 
more than 30 years later, as has already been stated, the 
scientific evidence is overwhelming that chemicals continue to 
persist in our environment, are a significant contributor to 
the problems of many diseases. Leukemia, brain cancer, other 
childhood cancers have increased by 20 percent since TSCA 
became law. We know for certain that exposure to substances 
like asbestos and mercury and many others pose lethal or 
catastrophic results. What these startling facts tell us is 
that TSCA in its current form is completely incapable of 
protecting the public and that it is imperative for Congress to 
amend the law so that it can safeguard the American people from 
exposure to lethal chemicals.
    Today we hear from our witnesses about a specific subset of 
chemicals that meet the criteria for being labeled as 
persistent, bioaccumulative and toxic, PBTs, and I appreciate 
them. I appreciate our witnesses for being here today to shed 
light on these especially devastating chemicals and, again, Mr. 
Chairman, I thank you for holding the hearing.
    And I yield back the balance of my time.
    Mr. Rush. The chair now recognizes the ranking member of 
the full committee and the gentleman from Texas, Mr. Barton, 
for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. We thank you, Chairman Rush.
    Before I give my opening statement, I want to say some 
words about our newest ranking member of this subcommittee, my 
good friend from Kentucky, Mr. Whitfield. I specifically asked 
him to take over for Congressman Radanovich because of Mr. 
Radanovich's situation with the death of his wife and the 
requirements that he take care of his young son. He didn't have 
the capability or the time to give the ranking membership his 
full attention and I understand that.
    I specifically asked Mr. Whitfield to take on the duties of 
this subcommittee's ranking membership because it is my 
expectation, Mr. Chairman, that at some point in time you and 
Chairman Waxman intend to move legislation reforming TSCA, and 
I wanted my very best, senior, experienced person at the helm 
and that is Ed Whitfield. He has worked in both the majority 
and the minority on this subcommittee and he knows the issues 
well. He knows also the personalities well and he has the 
confidence of both sides of the aisle so it was not serendipity 
that Ed Whitfield got asked to take this ranking membership and 
I think it speaks to his capabilities that he has already hit 
the ground running.
    I might also say, Mr. Chairman, that this is an important 
hearing and I think if you just look out in the audience you 
see former general counsels for the committee, and chiefs of 
staff for the committee and they don't come cheap, Mr. 
Chairman. They are here because this is a big deal and it is an 
important deal and it speaks to your leadership that you are 
taking this complex subject.
    On the issue at hand, we understand that PBTs are extremely 
toxic and can be hazardous. We understand that they need to be 
regulated closely and monitored continuously.
    We do have a witness from the Pellston Working Group here 
that has done some groundbreaking research and if their 
research is correct, Mr. Chairman, there is a possibility that 
we can adopt a more flexible regulatory approach based on not 
only the definition of what is hazardous but what the risk is 
of that hazard. So I am looking forward to their testimony, 
plus obviously the testimony of the other witnesses here.
    Congress does not normally do complex, technical issues 
well. As Mr. Whitfield has pointed out, in the Consumer 
Protection Act reauthorization last year, I don't think it was 
intentional but we adopted a regulatory approach for lead which 
is basically zero tolerance and because of that there are many 
products that are no longer on the marketplace today that 
really didn't have any potential harm to the population. So in 
this case, I hope that we do listen to our panels and we do 
work together in a bipartisan fashion to move a bill if that is 
the wish of the chairman and yourself, Mr. Chairman at the 
subcommittee level, that encompasses the latest science, the 
latest data and so that we get this one right.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Barton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chair thanks the ranking member.
    The chair is proud now to introduce the gentleman from 
Michigan, the chairman emeritus for the entire committee, who 
has provided leadership for this committee and on this 
particular issue for many years, and he should have been 
introduced earlier but somehow the chairman did not see him 
over there which is attributed to my bad eyesight. And so now 
the chair recognizes Mr. Dingell for 5 minutes for opening 
statements.
    Mr. Dingell. Thank you, Mr. Chairman.
    First, I want to express my gratitude to you for your kind 
words and second, I would like to observe this meeting and this 
hearing as very, very important and useful. And I know under 
your leadership, we will begin a process of reviewing carefully 
TSCA of what it is doing, what it is not doing, how the changes 
of technology and other things over the past years, some 30 of 
which have passed since we have done this legislation in the 
first place, and how those things have changed the 
circumstances. We are also going to need to know what changes 
we have to make in the legislation and it is my hope that these 
things will be done carefully under your leadership, and I know 
that you will do this wisely and I think that the information 
to be achieved will be very valuable.
    Mr. Chairman, with that I ask unanimous consent to revise 
and extend my remarks and I thank you for your courtesy.
    [The prepared statement of Mr. Dingell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chair now recognizes the gentleman from 
Pennsylvania, Mr. Pitts, for 2 minutes.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important hearing on the Toxic Substance Control Act and 
the subset of chemicals that meet the criteria for being 
labeled as persistent, bioaccumulative and toxic.
    PBTs are considered to be particularly harmful because they 
are long-lasting chemical substances and mixtures that can 
build up in the food chain to levels that are harmful to human 
and ecosystem health. PBTs can transfer easily and linger for a 
long time in people and the environment, and they are 
associated with adverse human health effects.
    We should take this subject very seriously. None of us want 
these substances negatively impacting humans or the environment 
however we must prudently go about regulating these chemicals. 
There are some that argue that the appearance of a PBT in the 
environment is not enough to warrant regulation but rather body 
or tissue residues showing a direct causal link to adverse 
responses are necessary to justify regulatory management.
    Additionally, some experts make a case that regulatory 
action should be based on complete information in order to 
avoid negative, unintended consequences. For example, PBT 
screening criteria assesses only hazard and not risk. Something 
may be hazardous and not pose a risk if its exposure is 
controlled and hazard assessment only provides information on 
the properties of the substance not the likelihood of the 
facts. This is comparable to problems that have resulted from 
taking a similar approach to lead contents limits in the 
Consumer Product Safety Improvement Act which has led to the 
elimination of products that have not demonstrated a risk of 
lead poisoning.
    Our committee should move forward with this example in 
mind. Yet I urge us to continue to place safety as the highest 
goal.
    I appreciate the witnesses being here today. I look forward 
to listening to your testimony.
    I thank you and I yield back.
    Mr. Rush. The chair now recognizes the gentleman from 
Georgia. He is no longer here.
    The chair recognizes the gentlelady from Colorado, a 
leading voice on these and other matters, Ms. DeGette, for 2 
minutes.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Chairman, ever since Rachel Carson's landmark book, 
Silent Spring, we have known the dangers of chemicals like DDT 
that persist in the environment, bioaccumulate and are highly 
toxic. When these chemicals move up the food chain, they 
increase in concentration and their effects can linger for 
decades. So as the species at the very top of the food chain, 
this should worry us. DDT was banned in 1972 but its effects 
are felt today. Now, DDT is a pesticide covered under FIFRA 
that many harmful PBT chemicals are covered under the much 
weaker regime of TSCA.
    One of those chemicals is mercury. In 2004, my State of 
Colorado initiated a 5-year study to assess the levels of 
mercury in fish in the State. Two lakes just outside of Denver 
were found to have fish with high levels of mercury and local 
residents are now advised not to eat fish from these lakes. 
Colorado's lakes are not unique, unfortunately and it just 
shows why TSCA reform is badly needed. TSCA was enacted over 30 
years ago and it is our only major environmental law that has 
not been reauthorized.
    Now, one of the most important considerations in TSCA 
reform as some of my colleagues on the other side of the aisle 
have mentioned this is how to characterize the risk posed by 
various chemicals. Focusing on those chemicals that persist in 
the environment and are highly toxic make sense and I want to 
point out also, I agree 100 percent with Mr. Whitfield and 
others who say that we should use science as the basis of our 
consideration as we look towards reauthorizing this bill. And I 
will also point out to our credit in this committee, when we 
reauthorized the Consumer Product Safety Act last year, we may 
have had some issues with lead and other substances but due to 
some very good conversations with me and others on this 
committee, we worked out what to do with phthalates in a 
bipartisan way and also in a bicameral way that is science-
based and that we were all very pleased with. So, Mr. Chairman, 
I look forward to working with you and everyone on this 
committee to make sure that not just we are safe from these PBT 
chemicals but that our grandchildren are also safe as these 
chemicals move up the food chain.
    Mr. Rush. The chair recognizes the gentleman from 
Louisiana, Mr. Scalise, for 2 minutes.

 OPENING STATEMENT OF HON. STEVE SCALISE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Scalise. Thank you, Mr. Chairman and Ranking Member 
Whitfield, for having this hearing today. I also want to thank 
our witnesses for taking the time to be with us.
    I believe we can all agree that the issue of persistent, 
bioaccumulative and toxic chemicals, otherwise known as PBTs, 
is an important one that we must continue to examine. I am 
pleased that this subcommittee is once again taking up the 
issue of toxic substances and the laws governing their use in 
commerce.
    The use and regulation of toxic substances and of chemicals 
in general is an issue that we all must take very seriously. 
First, because of the effects certain chemicals can have on our 
health and the environment. I know from hearing from the 
statements of my colleagues made today that they share these 
concerns but we also want to make sure that the chemicals that 
are produced, used and imported into our country are safe. But 
this issue is also important to be because of the chemical 
industry's presence in my home State of Louisiana and because 
of its importance to our national economy.
    According to the American Chemistry Council, over 96 
percent of all manufactured goods are directly touched by the 
business of chemistry, making this industry a vital part of 
every aspect of our economy. In Louisiana, the chemical 
industry directly employs over 22,000 people and for every 
chemistry industry job in Louisiana, an additional 4.5 jobs are 
created in our State, and one thing that must be pointed out is 
this chemical industry, these jobs are high-paying. The average 
wage of a chemistry industry employee in Louisiana is over 
$82,000, which is 53 percent higher than the average 
manufacturing wage in the State. During these tough economic 
times, these are the kind of jobs we need to be creating more 
of.
    As this committee continues to consider legislation, we 
must make our decisions based on real science that is 
measurable, reliable and reproducible. We must also consider 
the unintended consequences of actions that might well be well-
intentioned but don't fix the problems yet produce devastating 
consequences as was the case in the last Congress when changes 
to the Consumer Product Safety Improvement Act shut down small 
businesses in America.
    Again, it is clear that there are harmful chemicals like 
PBTs out there that can have harmful effects if not used 
properly, and the proper safeguards need to be put in place, 
and we know that the EPA has been taking steps to ensure that 
is the case. I think the key finding is the appropriate balance 
between protecting our health and environment, and protecting a 
vital sector of our economy and the jobs in this industry. I 
believe these goals are not mutually exclusive.
    I look forward to hearing from our panelists today on 
actions that have been taken in other States and other 
countries to put protections in place. And I am interested in 
our panelists' thoughts on the use of exposure and risk data, 
things that in my opinion should be based on sound science and 
should be used along with data on the hazards that chemicals 
may pose.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Rush. Mr. Barrow is recognized for 2 minutes. The chair 
thanks the gentleman.
    Mr. Green is recognized for 2 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing on continued looking at the modernization of the Toxic 
Substance Control Act. I also want to welcome and congratulate 
our new ranking member, Congressman Whitfield, and look forward 
to working with him as we move forward on TSCA modernization 
and other matters before the subcommittee.
    The issue we are looking at today, persistent, 
bioaccumulative and toxic chemicals, or PBTs, are widely agreed 
to be a small but potentially dangerous class of chemicals. 
Their ability to build up in the food chain and persist over 
long periods of time pose a significant danger to human health 
and the environment, a fact that the EPA has recognized as they 
have taken action to implement more rigorous screenings for 
chemicals that display characters of PBTs. These actions 
include lower reporting thresholds for PBTs on the toxic 
release inventory, the development of prioritization of tool 
for the waste streams containing PBTs and reviewing TSCA pre-
manufacturing notices for substances that meet PBT-related 
criteria.
    I look forward to our witnesses today and what further 
steps we can take to domestically further protect human health 
and environment but also the important international area. 
Transboundary migration of pollutants is an important issue and 
one this committee has worked on for some time through efforts 
to implement the Stockholm Convention on Persistent Organic 
Pollutants to Long-Range Transboundary Air Pollution, POPs 
protocol in the Rotterdam Convention on the Prior Informed 
Consent. Passing legislation of these treaties should be a 
priority in any TSCA modernization legislation this committee 
takes up.
    Mr. Chairman, I know I am almost through with my time but I 
would like to ask unanimous consent to place a letter into the 
record from the American Chemistry Council in today's hearing. 
ACC has long supported implementing the international treaties 
and it sees U.S. leadership in this area as critical action in 
the international area, and I would encourage if we haven't 
started it to establish a working group of all the interested 
parties of such major legislation and I would hope we could 
pass it through this Congress.
    Mr. Rush. The chairman thanks the gentleman and without 
hearing no objection, the letter will be included into the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. We recognize Dr. Gingrey for 2 minutes for the 
purposes of opening statements.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you for calling this third 
hearing on the Toxic Substance Control Act of 1976. I am happy 
that we have once again delved into this complex issue and I 
appreciate the diligence of Commerce, Trade, and Consumer 
Protection Subcommittee to continue to examine this important 
issue.
    TSCA directs the Environmental Protection Agency to 
regulate all phases of manufacturing of chemicals and to 
identify unreasonable risk of injury from new or existing 
chemicals. When regulating these chemicals, TSCA directs the 
EPA to use the least burdensome option to reduce the risk of 
harm while balancing the benefits provided by the chemical. As 
a risk-based law, TSCA relies on the presence of sound science 
promote the chemical produces and the EPA in order to properly 
implement the law.
    Mr. Chairman, while there are many laudable elements of 
TSCA, that does not mean that this law is anywhere close to 
perfect. Since its enactment, chemical manufacturers and 
processes have advanced and so has technology. Accordingly, 
TSCA needs to best reflect the science that is currently being 
utilized. As we heard during our previous two hearings on this 
matter, TSCA reform is needed because we need to ensure the 
safety of chemicals used in all products, however, while there 
is that consensus, the way to accomplish the reform is 
certainly subject to debate and, indeed, some disagreement.
    Today's hearing looks at a different aspect of TSCA, and 
its domestic and international implications for health and 
environmental factors of persistent, bioaccumulative and toxic 
chemicals, PBT. Subsequently, today's panel of witnesses will 
discuss the efforts taken by TSCA to maintain the safe use of 
chemicals both at home and abroad, however, I hope that we do 
not use this hearing as a vehicle to fundamentally overhaul 
TSCA because if we do, my fear is that we will jeopardize the 
long term viability of the chemical industry which will have 
lingering ramifications for other industries and subsequently, 
of course, our economy.
    Mr. Chairman, I would suggest that as we hear from our 
distinguished panel of witnesses today we keep in mind the 
underlying risk-based principles that guide the current 
implementation of TSCA for health and environment. I look 
forward to their testimonies.
    And I yield back.
    Mr. Rush. The chair recognizes the gentlelady from Ohio, 
Ms. Sutton, for 2 minutes.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Chairman Rush, for holding today's 
important hearing on TSCA and the persistent, bioaccumulative 
and toxic chemicals also known as PBTs.
    This is a very serious issue. Our health, the environment 
and the public's confidence are at issue and chemicals that are 
considered to be persistent, bioaccumulative and toxic have 
been associated with severe health risks and results, and these 
types of chemicals have been found in human bodies and that 
they can build up in our food chain and last for long periods 
of time in our environment. In fact, PBTs accounted for 97 
percent of all fish consumption advisories in 2008, and my 
congressional district includes part of Lake Erie's shoreline.
    In 1997, the U.S. and Canada launched the Great Lakes Bi-
National Toxics Strategy to eliminate PBTs and according to the 
state of the Great Lakes 2009 report produced jointly by the 
U.S. EPA and Environment Canada, releases of targeted 
bioaccumulative toxic chemicals have declined significantly 
from their peak period in past decades. The report continues to 
state that ``For the most part, bioaccumulative toxic chemicals 
no longer limit the reproduction of fish, birds and mammals.'' 
And while this sounds like good news, there is still much work 
to be done. With funding from the Great Lakes Restoration 
Initiative, Ohio is investing $4.21 million in five projects to 
address toxic substances and reduce contamination.
    I have met with health care professionals in my 
congressional district who have expressed concern about health 
consequences that they have seen from chemical exposure in 
patients, as well. And I am interested to hear from today's 
witnesses how the Toxic Substances Control Act can be 
modernized to more effectively address these very real health 
concerns. Industry and a variety of environmental, animal 
welfare, and health and safety groups have all stated that they 
support modernizing TSCA, and as we move forward, we need to 
ensure the public's trust, and protect the public and future 
generations from health and environmental harm while providing 
industry with a clear direction to ensure that our workers keep 
working. It must not be a question of jobs versus the 
environment. We can and we must effectively tend to both.
    And I yield back.
    Mr. Rush. The chair now recognizes the gentleman from 
Maryland, Mr. Sarbanes, for 2 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate your 
holding this third hearing on the Toxic Substances Control Act.
    My continuing perspective on this is that few Americans 
would imagine how thin the protections are when it comes to 
some of these chemicals and so it is really incumbent on us to 
try to modernize this oversight. I am going to be particularly 
interested to hear about how we can sort of get a head start 
based on the fact that it has been 30-plus years since this was 
modernized and science has certainly advanced significantly. So 
even if we are now going to come armed with a stronger set of 
standards for how we judge the toxicity of these various 
chemicals, I imagine there is a whole set of them that we 
already know are sinister enough that they ought to be put in a 
category right at the outset so that we can sort of start on 
the 30-yardline or the 40-yardline instead of on the 10-
yardline, and I am looking forward to the testimony of the 
panel in that respect and otherwise on this important issue.
    And I yield back my time. Thanks.
    Mr. Rush. The chair thanks all of the members for their 
opening statements.
    And it is now my pleasure and honor to introduce our 
witnesses. We have nine esteemed witnesses from both far and 
near and I want to really express to each and every one of you 
how grateful we are that you would take, you will take, the 
time out from your busy schedules to appear before this 
subcommittee and to give us your best in helping us and direct 
us as we travel down this path to modernizing and reauthorizing 
TSCA.
    I want to introduce now Mr. James Jones who serves as the 
deputy assistant administrator for the Office of Prevention, 
Pesticides and Toxic Substances for the Environmental 
Protection Agency. And seated next to Mr. Jones is Dr. John 
Thompson and he is the division director for the Office of 
Environmental Policy, Bureau of Oceans, Environment and Science 
at the Department of State and next to Dr. Thompson is Mr. Ted 
Sturdevant. Mr. Sturdevant is the director of the Department of 
Ecology for the great State of Washington. And seated next to 
Mr. Sturdevant is Dr. Linda Greer who is director of the Health 
and Environmental Program for the Natural Resources Defense 
Council. And to her left is Dr. Christina Cowan-Ellsberry and 
she is from CE2 Consulting, former principal scientist of the 
Environmental Sciences Department at Procter and Gamble. And 
lastly, we have with us this morning Dr. William J. Adams who 
is the chairman of the North American Metals Council.
    And I again want to welcome each and every one of you to 
this hearing. And it is the practice of this subcommittee to 
swear-in all of our witnesses, and so I want to ask that each 
one of you stand and raise your right hand and respond to this 
question. Do you solemnly swear to tell the truth, the whole 
truth and nothing but the truth? Let the record reflect that 
the witnesses have all answered in the affirmative.
    And before we hear the opening statements of the witnesses, 
I must inform each and every one of you who are present that 
there are votes occurring. I don't know how much time we have 
left on the votes right now. Less than 10 minutes so we will 
try to get to two or three and then we will have to see how 
many votes are there? Three? We have three votes so it will 
take us about a half-an-hour to get over there and get back so 
we ask that you just be patient with us while we go and vote.
    Dr. Sturdevant, we are going to try to finish you up before 
we have to go over there. Is that okay? Yes, thank you very 
much.
    Now, the chair recognizes Mr. Jones for 5 minutes.

STATEMENTS OF JIM JONES, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE 
 OF PREVENTION, PESTICIDES AND TOXIC SUBSTANCES, ENVIRONMENTAL 
PROTECTION AGENCY; JOHN THOMPSON, DIVISION DIRECTOR, OFFICE OF 
    ENVIRONMENTAL POLICY, BUREAU OF OCEANS, ENVIRONMENT AND 
    SCIENCE, DEPARTMENT OF STATE; TED STURDEVANT, DIRECTOR, 
   DEPARTMENT OF ECOLOGY, STATE OF WASHINGTON; LINDA GREER, 
  DIRECTOR, HEALTH AND ENVIRONMENT PROGRAM, NATURAL RESOURCES 
  DEFENSE COUNCIL; CHRISTINA COWAN-ELLSBERRY, CE2 CONSULTING, 
FORMER PRINCIPAL SCIENTIST, ENVIRONMENTAL SCIENCES DEPARTMENT, 
   PROCTER AND GAMBLE; AND WILLIAM J. ADAMS, CHAIRMAN, NORTH 
                    AMERICAN METALS COUNCIL

                  STATEMENT OF JAMES J. JONES

    Mr. Jones. Good morning, Chairman Rush and members of the 
subcommittee.
    I am Jim Jones, Deputy Assistant Administrator for 
Prevention, Pesticides and Toxic Substances at EPA. I am here 
today to talk about chemicals that are persistent, 
bioaccumulative and toxic, otherwise known as PBTs, and EPA's 
domestic and international actions related to such chemicals. I 
appreciate the opportunity to be here today.
    As this committee knows, EPA's mission is to protect public 
health and the environment. Ensuring that our citizens, and 
especially our children, are protected from exposure to unsafe 
levels of toxic chemicals and pollution by continually 
strengthening our chemical management regime is not only 
central to EPA's work but it is an area that EPA Administrator 
Jackson identified as one of her priorities for the agency.
    You have asked me here today to talk about PBTs in 
particular. PBTs are long-lasting substances that build up in 
the food chain and at certain exposure levels may be harmful to 
human health and the environment. Their persistent property 
means that when they are released into the environment they 
remain essentially unaltered for months or years. With 
continued use and release, they build up in sediments and soil 
and their concentrations increase as they go up the food chain. 
It is this concentration in the food chain which, under certain 
circumstances, can cause adverse effects in humans or wildlife. 
Some PBTs are also susceptible to long range transport such 
that adverse effects can be found far removed from their site 
of production or use. Combined, these properties are what make 
EPA concerned not only with historical PBT chemicals, such as 
DDT and PCBs, but also with chemicals with similar properties 
entering commerce today or in the future. And so I would like 
to take a few minutes to just touch on a few of the relevant 
domestic and international actions we have taken with respect 
to PBTs.
    On September 29 of 2009, EPA Administrator Jackson 
announced that EPA is putting in place a comprehensive approach 
to enhance the agency's current chemicals management program 
under TSCA. On December 30 of 2009, EPA posted action plans on 
phthalates, perfluorinated chemicals, polybrominated diphenyl 
ethers and products, and short-chained chlorinated paraffins. 
The latter three are PBTs. These action plans summarize 
available hazard exposure and use information, outline the 
risks that each chemical may present and identify the specific 
steps the agency has taken to address those concerns.
    The initial chemicals selected for action plan development 
were chosen on the basis of multiple factors including 
chemicals identified as persistent, bioaccumulative and toxic 
as well as other factors. But while we are moving forward to 
implement the actions in those plans, we know that the very 
nature of PBTs means that stand-alone action by any one country 
is not enough.
    The global nature of many of these substances is why the 
Obama Administration identified the Stockholm Convention on 
Persistent Organic Pollutants, known as the POPs Convention, 
along with the Rotterdam Convention on Prior Informed Consent, 
known as the PIC Convention, as a priority treaty for U.S. 
ratification and why joining the POPs Protocol to the 
Convention on Long Range Transboundary Air Pollution, known as 
the LRTAP POPs Protocol, is in our interest. By joining with 
the rest of the world to phase out or reduce the use and 
release of these PBTs, we protect both human health and the 
environment, and not only for ourselves but for the rest of the 
world.
    At EPA we take the risks posed by these substances to our 
environment and public health very seriously but we are 
hampered by our lack of implementing legislation. As your 
committee considers the issue of PBTs, I would stress the 
importance of implementing legislation that would allow the 
United States to join the Stockholm Convention, the Rotterdam 
Convention and the LRTAP POPs Protocol. The Obama 
Administration thinks it is time to become parties to these 
agreements.
    Among our efforts to strengthen the agency's chemical 
management regime, we have released a set of administration 
principles to help guide legislative reform and outline a 
series of activities to enhance our programs. Much of that work 
will encompass PBT substances and could provide an opportunity 
for the consideration of implementing legislation for the POPs 
Convention, the PIC Convention and the LRTAP POPs Protocol. We 
look forward to working with Congress, our domestic 
stakeholders and the international community to strengthen both 
our domestic and international actions with respect to PBT 
substances.
    Thank you for having me here today and I will be happy to 
respond to any questions that you may have.
    [The prepared statement of Mr. Jones follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chair now recognizes Dr. Thompson for 5 
minutes.

                 STATEMENT OF JOHN E. THOMPSON

    Mr. Thompson. Thank you, Mr. Chairman, and my thanks to the 
members of the subcommittee for holding this hearing on 
domestic and international actions on PBTs.
    I have a written statement I would like to submit for the 
record with your permission.
    Mr. Rush. Hearing no objection.
    Mr. Thompson. Thank you.
    The advances in the discovery and application of chemicals 
have led to many benefits enjoyed by society. At the same time, 
certain chemicals impose significant risks to human health and 
the environment. Production and use of such chemicals is 
increasing outside of the United States. That is important 
because of the potential for local harm and also because some 
chemicals are capable of having impacts far from where they are 
used and released.
    Indigenous people in Alaska and elsewhere in the United 
States, though often remote from such sources, may be 
particularly at risk to exposure because of their reliance on a 
subsistence diet. Of particular interest, are those PBTs which 
are organic and capable of transporting over long distances, 
these chemicals are referred to persistent, organic pollutants 
or POPs. We focus on these chemicals internationally because 
they can pose risks far from their source of release. The role 
of the State Department is to facilitate international 
cooperation aimed at mitigating these risks and we do so 
working closely with our colleagues from the Environmental 
Protection Agency. In that regard, I would like to describe 
three key international agreements aimed at controlling these 
types of chemicals, the Stockholm Convention on POPs, the 
Protocol on POPs on the Convention on Long Range Transboundary 
Air Pollution and the Rotterdam Convention on the Prior 
Informed Consent Procedure for Certain Hazardous Chemicals and 
Pesticides in International Trade.
    The Stockholm Convention aims to protect human health and 
the environment from exposure to POPs. It has been ratified by 
169 countries including nearly all of our major trading 
partners and allies. The Convention calls upon parties to 
prohibit or restrict production in use of POPs such PCBs, and 
to reduce byproduct emissions of substances such as dioxins and 
furans. It includes a science-based procedure to govern the 
addition of chemicals and allows a party to decide whether to 
join amendments adding a substance to the Convention.
    The second agreement I would like to mention is the POPs 
Protocol to the Convention on Long Range Transboundary Air 
Pollution. This agreement is broadly similar to the global 
Stockholm Convention, but it is regional in nature, 
encompassing the United States, Canada, Europe and the former 
Soviet Republics.
    A third important agreement is the Rotterdam Convention 
which promotes shared responsibility between exporting and 
importing countries in the trade of certain chemicals. For 
international shipments of such chemicals, it stipulates that 
consent of the importing country must be obtained before the 
chemical can be exported. The Convention helps to ensure 
countries have information to make decisions on sound chemicals 
management which means less likelihood of health and 
environmental risks in those countries and in the United 
States.
    These agreements have the support of this Administration 
and the business and environmental communities but we are a 
nonparty because we need legislation to fully implement their 
provisions. We are therefore unable as a nonparty to 
participate fully in their proceedings. Only by joining these 
agreements, can we use them effectively to pursue public health 
protection in the United States. What is of paramount interest 
to the Department of State is enabling full U.S. participation 
in the deliberation of these agreements as soon as possible so 
we can pursue U.S. interests, especially protecting public 
health and the environment.
    I also note that EPA recently announced the development of 
action plans to address certain classes of chemicals as 
potential priorities. Some of these chemicals are under 
consideration or are already included in the agreements that I 
have described. The best way for the United States to lead 
internationally is to do so based on a strong domestic approach 
that is consistent with our international obligations. By 
taking action at home, we can use these agreements to ensure 
chemicals are managed more responsibly abroad.
    In summary, Mr. Chairman, there are some chemicals whose 
use anywhere in the world may present a public health and 
environmental threat to the United States because they are 
persistent, bioaccumulative, toxic and are transported over 
long distances. We are most effective leading abroad when we 
have been diligent and effective in addressing chemicals 
management at home. We have the tools to promote better 
management of these chemicals on a global basis through these 
agreements but we need to join them to do that most 
effectively.
    Thank you for having me here today and I would be pleased 
to answer any questions.
    [The prepared statement of Mr. Thompson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. Thank you, Dr. Thompson.
    Mr. Sturdevant, will you please hold your testimony until 
we return? The committee stands in recess until 11:30.
    [Recess]
    Mr. Rush. Dr. Greer, are you prepared with your opening 
statement?
    Ms. Greer. Yes, sir.
    Mr. Rush. All right, well, the chair recognizes Dr. Greer 
for 5 minutes for the purposes of an opening statement.

                  STATEMENT OF LINDA E. GREER

    Ms. Greer. Thank you for the opportunity to testify today.
    I am Linda Greer and I am the director of the Health 
Program at NRDC, the Natural Resources Defense Council. I have 
a Ph.D. in environmental toxicology and a masters degree in 
public health. Since 1981, I have worked on a wide range of 
environmental health issues, and have focused on numerous 
persistent, bioaccumulative and toxic chemicals including 
mercury, dioxin and PCBs, among others.
    Commonsense tells us that chemicals with a PBT profile are 
bad actors and that laws designed to protect people from 
dangerous environmental contaminants should prioritize the 
phase-out of chemicals with this alarming profile. Society 
should rely upon safer chemicals that will degrade and be 
metabolized easily in the body back into harmless chemicals 
after use, not those that will take shelter in our bones, in 
our blood and in our fat for the rest of eternity.
    Remarkably, however, PBTs are not a thing of the past. 
Despite the notoriety of this class and all that scientists 
have learned about them over the past 30 years, there are still 
many such chemicals that continue to be used in commerce today 
and sometimes in very large quantities. Three of EPA's four 
recently announced chemical action plans, for example, are from 
the PBT class.
    The polybrominated diphenyl ethers, the PBDEs, are still 
used today as flame-retardants in plastics, polyurethane foams 
and textiles, even though safer alternatives are available. 
They remain in products in millions of homes. This, despite the 
evidence that their chemical structure is extraordinarily 
similar to the PCBs banned decades ago that they share 
structural characteristics of the dioxins.
    Despite the toxicological evidence that shows that PBDEs 
are thyroid hormone disrupters, that they are neurotoxic to the 
developing brain, and that they have immunotoxic properties 
similar to PCBs; despite the doubling of their concentration 
milk samples every 5 years; despite their detection globally, 
including in the arctic where they have never been used, PBDEs 
are still in use in 2010. And other PBDEs are similarly still 
in the market and used in high volume despite all that we know 
about the hazards they pose, defying commonsense.
    So how can this be? It is truly a tribute to the utter 
impotence of TSCA that chemicals with such notorious profiles 
remain on the market allowing the public to be endlessly 
exposed while analysis after analysis lumbers on. TSCA 
constraints make it very difficult for EPA to fully assess new 
chemicals or require the testing of chemicals in use, and the 
hurdles for EPA to actually restrict use of an existing 
chemical are even higher. It is almost impossible for EPA to 
take regulatory action against PBTs and other dangerous 
chemicals, even those like asbestos that are well-known to 
cause cancer or other serious health effects. And although some 
in industry see the problems and agree that we need reform, 
many others are comfortable with the culture or study and delay 
that have kept EPA from taking action on chemicals they have 
marketed without safety data for more than a generation.
    This head-in-the-sand mentality is not good for business in 
the long run. Europe is far ahead of us and will prohibit the 
export of these chemicals to their markets. Safety problems 
will plague these companies eventually as the latest story from 
Toyota shows us.
    The consequence of such delay in getting PBTS and other 
dangerous chemicals off the market may well have had a personal 
impact on me. Three years ago as I continued my career to 
reduce toxic chemical pollution, I got a call from my doctor 
about an abnormality in my mammogram. Soon afterwards, I was 
struggling to come to terms with the diagnosis every woman 
dreads, breast cancer. Despite my Ph.D., I found myself 
thinking what everyone thinks in a situation like this, why did 
this happen to me, and not just why me but why so many 
colleagues and friends. The president of NRDC, Frances 
Beinecke, was diagnosed with breast cancer about 8 years ago. 
So was the executive assistant of John Adams, our former 
president. She died of that disease before the age of 45, a 
woman in our finance department, another in communications, one 
of our senior analysts, an office manager, a young temporary 
secretary, my sister-in-law. Most or all of these women did not 
have known risk factors and all of them contracted this disease 
when they were very young.
    I suspect many of the members of this committee, and their 
staff, have had similar experiences. Friends, family and 
colleagues who have been diagnosed with cancer, or who have 
children with infertility issues, or grandchildren with 
development or learning disabilities, or elderly parents with 
Alzheimer's or Parkinson's disease.
    I tell my story to inspire you, this committee, this 
Congress and this Administration to seriously consider what it 
will take to get action on hazardous chemicals still being used 
in commerce today, known PBTs and others. Not just testing. Not 
just information. Not more analysis, action. Well known PBTs, 
such as dioxin, DDT and PCBs have been associated with the 
risks of breast cancer for many, many years. A survey of peer 
review literature found more than 200 chemicals has been 
associated with mammary tumors in animals. Chlorinated 
solvents, polynuclear aromatics and others, yet EPA has taken 
action on only four of 80,000 chemicals in commerce in the 35 
years of TSCA.
    The public is rightfully alarmed and wants to see action 
and results not just more years of studies that lead nowhere. 
Many retailers have themselves taken action to remove products 
from shelves where they fear harm to their customers in light 
of government stagnation. Even certain segments of industry 
itself, the personal products manufacturers, for example, who 
manufacture our lotions and shampoos, have begun to speak out 
for the need for reform fearing problems in the ingredients 
that they buy for their formulation.
    For this reason, we recommend Congress and this committee, 
mandate the phase-out of at least the handful of best known 
PBTs and bad actors in a reauthorized TSCA and put our country 
on a path forward for the use of safer chemicals. We have spent 
literally decades quantifying the risks of these chemicals and 
exposed an entire generation in the meantime, unable to turn to 
the more practical questions of how these PBTs are used, how 
they can be reduced, how they can be phased out. It is time for 
EPA to parse the uses, identify the critical uses, identify the 
unnecessary uses, and move forward on these chemicals.
    I was one of the lucky ones. My breast cancer has been 
caught early and I am doing well but as I do my work every day, 
I think of my daughter who was dosed with every contaminant in 
my breast milk four or more times a day for the first year of 
her life and of her generation. My efforts here today and back 
at the desk to reduce or eliminate toxic chemicals are for her, 
and you too should take action to protect your children and 
grandchildren.
    Thank you very much for this opportunity to testify.
    [The prepared statement of Ms. Greer follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. The chair now recognizes Dr. Cowan-Ellsberry.

             STATEMENT OF CHRISTINA COWAN-ELLSBERRY

    Ms. Cowan-Ellsberry. First, I would like to thank the 
chairman and the ranking member and the members of the 
subcommittee for inviting me to testify before you today.
    My name is Christina Cowan-Ellsberry and I have worked in 
the field of environmental and human safety and risk assessment 
of chemicals for over 30 years. I am here of my own volition 
and represent only myself. My testimony is based on my 
scientific training and expertise and my experience with the 
PBT issue. There are two reasons I decided to come on my own. 
First, as a consumer and citizen of the United States, I am as 
concerned as you are about chemicals that may be in commerce 
and that could cause adverse impacts on me, my family and the 
environment.
    Secondly, I have worked since the 1990s, and actually 
earlier, on the development of the PBT criteria and methods for 
identifying and evaluating the safety of organic PBTs in 
several national and international fora, including the United 
States, Canada, Europe and the United Nations. I have seen how 
using the established criteria, and science and risk-based 
assessment process has resulted in effective PBT identification 
and assessment programs, and has resulted in prioritization of 
resources toward PBT management on national and global scales. 
As successful as these initiatives have been in illustrating it 
is possible to identify, assess and manage PBTs, these 
initiatives have also illustrated that the process can be 
scientifically challenging, and require the active involvement 
of the best scientists and the use of the most reliable and 
relevant data.
    At the recent SETAC Pellston Workshop, one common 
frustration voiced by participants was that many of the current 
national and international regulations accept only a limited 
set of test data. While this may be appropriate for screening 
and prioritization, it fails to recognize the incredible 
evolution of the science which has produced new insights into 
PBT chemical and an array of new methods to identify and assess 
PBT chemicals. As a result, the scientists are frustrated when 
they bring forward these new data and insights only to find 
that they are rejected, not because of scientific reasons but 
rather because the regulatory framework does not allow for its 
consideration. Given the rapid improvement in these test 
methods and guidance, it is critically important for U.S. EPA 
scientists to contribute to and incorporate the most current 
science and scientific understanding into their assessments.
    Through all my years of work on PBTs, I have greatly valued 
the scientific expertise and interaction with my colleagues in 
the U.S. EPA, and commend them for their role in promoting the 
risk-based and science-based underpinnings of the PBT 
identification and assessment process. My concern is, and as 
voiced by several here, is that although the U.S. publicly 
committed in the 1990s to working within the international 
community to address chemicals of international concern, the 
U.S. has not become a full party to either the LRTAP POPs 
Protocol or the Stockholm POPs Protocol. Unfortunately, the 
risk-based and science-based underpinning of these two 
conventions, which the United States promoted are being eroded 
without this active U.S. involvement. I strongly urge you to 
make sure that the U.S. becomes a full party to these 
conventions so that the U.S. government scientists can once 
again bring their knowledge and expertise forward in leadership 
internationally.
    Finally, I believe it is also important that EPA develop a 
stronger Federal PBT program so that the States do not have to 
take separate, and potentially conflicting, actions to identify 
and manage these substances. Many States don't have the depth 
in scientific expertise nor the number of staff to effectively 
conduct these scientifically challenging assessments on their 
own. To ensure a technically strong and coordinated process for 
identification, assessment and management of PBTs, this program 
should include a scientific, multi-stakeholder fora, that 
includes representatives from these States, as well as 
potentially other scientific advisory panel members. 
Ultimately, I believe that a reform of TSCA that contains a 
strong commitment to and adequate funding for this Federal 
program of PBT identification, assessment and management, and 
U.S. leadership internationally in PBT conventions, will 
benefit U.S. citizens as it will contribute to improving global 
public health and the environment through managing existing PBT 
chemicals, and provide assurance that new chemicals that have 
PBT properties will not enter commerce.
    And once again, I thank you for this opportunity to testify 
today and I look forward to answering your questions.
    [The prepared statement of Ms. Cowan-Ellsberry follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chair now recognizes Mr. Sturdevant for 5 
minutes.

                  STATEMENT OF TED STURDEVANT

    Mr. Sturdevant. Thank you, Mr. Chair, members of the 
subcommittee for holding this hearing and for having me.
    My name is Ted Sturdevant. I am the director of the 
Washington State Department of Ecology.
    Citizens in Washington State, like elsewhere, I imagine, 
expect from government basic health protections from things 
like toxic exposures. In recent years, we in Washington were 
seeing rising levels of concern around toxic chemicals and so a 
few years ago we made an agency priority the reduction of toxic 
threats in our State, and we started with starting the nation's 
first PBT program. That seemed like a very logical place to 
start for reasons that you have heard. It is very clear that we 
should be very careful with PBTs and it is also very clear that 
we are not very careful with PBTs.
    I had a real ah-ha moment when we were writing our PBT 
regulation. I was at home one morning, shaving, and I looked at 
the ingredients in the shaving cream and Nonylphenol was on 
there and the only reason that I knew what the heck that was is 
that we were considering inclusion of that chemical in our PBT 
list. It was right on the bubble and, you know, nothing on the 
can indicated it was anything I should be worried about and it 
just and, you know, I was rubbing this stuff on my face every 
day, and it just left me with this sense that no one was really 
watching and certainly not watching as closely as we should be.
    I think that only prevention works with PBTs. Once you let 
the PBT genie out of the bottle, you can't get it back in. PCBs 
are a great example of that. They were banned 34 years ago but 
today PCBs are flowing into Puget Sound all the time. We are 
spending millions of dollars on cleanup and we are still seeing 
fish and wildlife impacts from PCBs.
    A good and more recent example of both the challenge and I 
think the solution is found in the PBDE flame retardants you 
have heard about. They have been around since the '70s. In 
2003, we were seeing rising levels of PBDEs in Washington's 
environment and citizens. We didn't really know much about 
them. They were appearing in women's breast milk, in house dust 
that babies crawl around in, in polar bears in the artic. So we 
decided to take a look at them as part of our PBT program. We 
spent 3 years working on a chemical action plan for those flame 
retardants and the more we looked, the more concerned we grew. 
Levels kept rising. Studies kept showing more health concerns.
    In the meanwhile, industry was applying pressure saying 
they are safe, that we need to protect fire safety standards. 
We need to keep studying them and basically that everything was 
fine but we reached a very different conclusion. We decided 
that if there were better ways, if there were safer ways to 
flame-retard products in our homes, like TVs, computers, 
mattresses, furniture, then we should stop using PBDEs and use 
those safer alternatives, and we found ourselves in the middle 
of quite a fight. Some very sophisticated folks showed up in 
Olympia and fought us pretty hard on that and it took awhile 
but we did finally get there and we passed the nation's first 
ban on the deca-form of PBDEs but that was only one State. The 
other States, several other States had to then go through the 
same fight, take different approaches and the good news is that 
enough States did that, that there was a recent announcement of 
a voluntary phase-out of deca production in the United States.
    The bad news is that is not a very good system. It takes 
too long. It costs too much. It creates this patchwork of 
regulatory approaches across the country and it lets far too 
much unnecessary toxic contamination happen in the meantime.
    I don't think at the root of this that the problem or the 
solution is terribly complicated. We need a Federal system that 
works based on a few commonsense principles. First, before 
allowing a substance to be put out there into widespread 
commerce, we should make every reasonable effort to make sure 
that it is safe. I think that it is fair that that burden rest 
on industry rather than on EPA and the taxpayers. Second, if we 
know that there are chemicals out there that are causing 
environmental or human health problems, government should be 
able to step in, protect citizens and ban those chemicals. 
Third, if we know with reasonable certainty that a substance 
poses problems and there are safer alternatives, we should stop 
using that and switch to the safer alternative.
    With PBTs I think we already know enough that we should be 
very careful and make every effort to phase-out those uses that 
we can do without and prevent new uses. These seem to me to be 
sound, fair principles for a reasonable chemicals policy but it 
is not the one we have today. I would urge you to fashion such 
a policy. This isn't about being anti-chemical. It is about 
being pro-safer-chemical whenever you can and should.
    As you look at TSCA, I would ask you to keep in mind the 
role that the States have played in advancing protections from 
PBTs and other toxic chemicals. Even with TSCA reform, if 
another 30 years go by before we revisit it, we are going to 
need the States to fill in the gaps and be the laboratories of 
reform, and I would ask you to preserve our ability to do that. 
And because we at the State level need a strong Federal system, 
Washington and 12 other States in December issued our 
principles for reform of TSCA and those were provided to you 
with my written testimony.
    Finally, one other priority that we have in the State of 
Washington is restoring our Puget Sound to health by 2020. That 
problem with the Sound is not just about toxic pollution but 
toxic chemicals are entering the Sound everyday. Now, fixing 
TSCA won't fix Puget Sound but if we don't fix TSCA, and 
prevent a lot of that toxic contamination that could be 
prevented, we are not going to fix Puget Sound, and I don't 
think we are going to fix a lot of our other waterways, either, 
and we will continue to experience toxic exposures that just 
don't need to happen.
    So with that, I would like to express my very sincere 
gratitude for your looking at this issue and I respectfully 
urge you to craft a strong chemicals management policy that 
this country very much needs and deserves. Thank you.
    [The prepared statement of Mr. Sturdevant follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rush. Thank you very much.
    Now, the chair recognizes Dr. Adams for 5 minutes.

                   STATEMENT OF WILLIAM ADAMS

    Mr. Adams. Thank you, Mr. Chairman. It is my pleasure this 
morning to testify and talk about Toxic Substance Control Act 
and PBT particularly as it applies to metals.
    I am the chairman of the North American Metals Council. I 
am also a scientist and I have worked in the area of PBTs since 
the late '70s, and specifically, in the 1990s, and more 
recently on the REACH legislation in Europe. And over the 
course of time, I have published some hundred papers and I have 
published a book on PBT, so let me begin.
    I would like to give you some details about why PBT, some 
of the criteria of PBT are not applicable to metals. I would 
also like to give you some information as to how I think the 
hazard of metals and inorganic substances should be determined.
    Regarding persistence, persistence is problematic for 
metals because all metals and elements on the Periodic Table 
are conserved, and hence, they are persistent. The form and 
availability of the metal can change depending on the 
environmental conditions. They are also different for each 
metal element on the Periodic Table and this should be 
considered. Thus, setting a criterion say of example of removal 
of 70 percent in 28 days in the water automatically includes 
all the metals, and this includes the ones that are essential 
such as copper, zinc and iron, which are essential for life. As 
a result, applying criteria that were designed for organic 
substances to the metals then creates problems that are not 
necessarily needed.
    Regarding bioaccumulation, unlike organic substances, 
bioaccumulation potential of metals cannot be estimated using 
octanol-water partition coefficients. This is a common approach 
to estimate the amount of substance will accumulate in the fat 
of an organism. Bioconcentration and bioaccumulation factors 
are inversely related to exposure for metals. This is not the 
case for organics. The consequence of this is that in the most 
cleanest environments we have, let's take Lake Superior. What 
we find in that situation is that we have the biggest 
bioaccumulation factors. PBT criteria used, for example, use a 
bioaccumulation factor of 1,000 to decide whether a substance 
is bioaccumulative. All the metals pass that criteria for Lake 
Superior so, in fact, the whole approach is counterintuitive. 
The cleanest environments give you the biggest bioconcentration 
factors. In short, that B does not work for inorganic 
substances.
    Regarding toxicity, metals are generally not soluble. 
Toxicity results are almost always based on soluble metal salt 
that has been used in some toxicity tests for some organism. 
However, those are not the products that are put in the 
marketplace. By and large, the massive metals, the powders, the 
oxides, the sulfites are insoluble substances. I would like to 
point out in our recent discussions with the European 
Commission, we had this same discussion and after a long period 
of time and many testimonies the REACH regulations now 
acknowledge that PBT criteria do not apply to metals, and you 
can find this in the text of the Annex XIII of the REACH 
regulation.
    Now, I would like to take a moment or two then to propose 
an alternative. If we argue that P and B are not applicable to 
metals then let's look at what I think might work.
    In 2003, I chaired a SETAC, environmental toxicology and 
chemistry, sorry, Society of Environmental Toxicology and 
Chemistry workshop. We invited some 40 scientists from around 
the world to participate in this and the specific issue at hand 
was, how do we assess the hazard of metals. At this workshop 
PBT issues were discussed at length and reported out in a book 
which I edited.
    Consensus was reached at the workshop that the individual 
criteria, P, B and T, are limited in their ability to assess 
hazard or to prioritize metal substances. The criteria are not 
linked or integrated, and they attempt to identify or predict 
hazards using bioaccumulation and persistence as modifiers of 
toxicity but without fully incorporating other important fate 
characteristics, which for metals can include speciation, 
complexation, precipitation, dissolution, transformation, and 
sedimentation, and the approach does not consider exposure or 
release rate so we are essentially assessing hazard but no 
effort to assess risk.
    The science community recommended that a more comprehensive 
approach be taken for both metals and organics in which a 
generic hazard ranking could be determined using a model which 
simulates natural receiving water such as a lake. The model is 
termed a Unit World Model. The aim is to incorporate 
partitioning, transport, reactivity, bioavailability, and 
exposure route to give a single, transparent metric of hazard. 
It is essentially a critical load approach in which an estimate 
is made at the rate of which a chemical must be introduced into 
a common defined environment to achieve a concentration that 
becomes toxic, and the output of this model then is a 
calculation of the rate and the amount that has to be released 
to cause a problem. This allows then a ranking of both metals 
and organic substances so that you now not only just have 
criteria that says yes, it is PBT, but you have a ranking of 
the substances. Following the workshop, efforts have been 
ongoing to develop and validate this model and we worked on 
this now for 6 years. This model is now available and it can be 
downloaded and you can find it at www.unitworldmodel.net.
    In conclusion, attempts to universally and indiscriminately 
apply PBT criteria to all chemical substances and, for example, 
including metals, would be of concern, and would not 
necessarily reflect good science. Similarly, PBT information, 
by itself, cannot determine risk and such criteria should not 
be used in isolation as a basis for requiring regulatory 
action. It is important, and I summarize, to understand that 
persistence and bioaccumulation factors are not particularly 
useful for assessing metals. I believe the state of the science 
has moved beyond PBT and we have an opportunity to use more 
integrated, and a more reliable approach that not only 
considers the hazard but also considers release rates and 
processes that occur in nature, and this approach is now 
available.
    I thank you for this opportunity and I would be pleased to 
take any questions.
    [The prepared statement of Mr. Adams follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Rush. The chair thanks the witnesses again.
    And the chair recognizes himself now for 5 minutes of 
questioning of the witnesses.
    And, Dr. Greer, it is my understanding that if we know a 
given chemical is toxic and there is exposure and then we can 
determine the risk as defined by the national academics in 
their 1983 so-called Red Book they laid out the Federal risk 
assessment process. Risk assessment is ``the characterization 
of the potential adverse health effects of human exposure to 
environmental hazards.'' From that, Dr. Greer, can we assume 
that if a chemical is persistent, bioaccumulative and toxic 
that it is a PBT and there are known exposures so therefore 
there is a high risk? I have a couple of other questions that 
go along with that. When we know that there are PBTs and 
evidence of exposure, I understand that exposure can be 
important based on the geographic areas of specific 
populations, how should we address this concern? Can you answer 
both of those questions?
    Ms. Greer. Sure, let me clarify that it is not my position 
that risk assessment is not a valuable tool or that it is not 
important to look at both hazard and exposure, not at all but 
there are certain chemicals out there that meet the PBT 
criteria for which we already have evidence of exposure through 
biomonitoring of human blood or through looking at animals at 
the top of the food chain. And that combination, in my mind, is 
definitely sufficient to identify those chemicals for fast 
action so that the agency does not spend years and years 
deciding what level is dangerous but start asking questions 
about use reduction instead. What are do we have critical uses 
that we have to keep on the market? Do we have, you know, 
really the opposite, stupid uses that we could get rid of 
quickly and to start asking reduction questions rather than 
risk question. So I think that the real problem here is not so 
much the debate about risk assessment and exposure but really 
how to get, how to change TSCA so that it is not just about 
study, study, study but is about taking action instead. Asking 
the set of use production questions and exposure reduction 
questions instead of the questions just about hazard which is 
what the agency has, unfortunately, spent most of its 35 years 
doing.
    And when we look at the uses of these chemicals, we have to 
look at the patterns of exposure and the patterns of use. We 
know from experience that there are many communities with 
hotspots of exposure where certain chemicals have been used in 
large quantities and have accumulated. Certain patterns in 
diets that have hotspots of human exposure, et cetera. It is 
very hard to make a general safety determination that it is 
going to be okay here and not okay there because we usually 
lack the information about the widespread and spotty uses of 
these chemicals combines. I hope that answers your two 
questions.
    Mr. Rush. Dr. Jones, I have about another minute and a 
half. Do you generally have a response to the questions?
    Mr. Jones. The same questions?
    Mr. Rush. Yes.
    Mr. Jones. The agency believes that ultimately we need to 
evaluate chemicals based on their hazard, their exposure and 
their risk, and that the reason for that is that by addressing 
chemicals and uses that have the highest risk, we are going to 
get the best protection for the country, and not spending our 
energies on exposure routes that may pose little or not risk 
but instead on those exposure routes that are going to present 
the highest risk.
    Mr. Rush. Okay. The chair recognizes now Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman, and thank you all 
for your testimony. We appreciate it very much.
    Mr. Jones, back in 1991, there was a lawsuit, Corrosion 
Proof Fittings v. EPA, which evidently in the TSCA Act when you 
came up with the measure to correct the problem you use the 
least burdensome standard and evidently in that particular 
case, the EPA did not use the least burdensome standard. What 
is the difference in the standards in this in TSCA and in say 
the Clean Air Act?
    Mr. Jones. Unfortunately, I am not particularly expert at 
the Clean Air Act but I have a high degree of expertise in the 
pesticide regulatory framework, FIFRA.
    Mr. Whitfield. FIFRA, okay, let's say FIFRA.
    Mr. Jones. Well, I am sorry. My expertise is in pesticides 
and in TSCA.
    Mr. Whitfield. Oh, okay.
    Mr. Jones. The pesticides program which is sort of similar, 
it is chemicals.
    Mr. Whitfield. Yeah.
    Mr. Jones. Thus the regular standard is a reasonable 
certainty of no harm for chemicals used on food and it is a 
basic risk benefit standard for chemicals that are not used on 
food. There isn't a least burdensome requirement in those 
statutes.
    Mr. Whitfield. Okay, well, under TSCA when we talk about 
unreasonable risk, how do you define unreasonable risk? How do 
you determine something has unreasonable risk?
    Mr. Jones. Unreasonable risk under TSCA as it exists right 
now has been interpreted to be a risk benefit standard and that 
so if the risk of the use outweighs the benefits, it is 
determined to be an unreasonable risk.
    Mr. Whitfield. Okay, so it is a risk versus benefit. Now, 
and that is not always the standard in some other environmental 
laws, is it?
    Mr. Jones. That is correct.
    Mr. Whitfield. Okay and I would assume that Dr. Greer and 
Mr. Sturdevant and maybe Dr. Thompson would agree that the more 
stringent standard would be the best standard and would I be 
correct in that?
    Ms. Greer. I would agree that the track record shows that 
this standard has not been good for us. For example, in the 
case that you cite, it kept the agency from taking action 
against asbestos which I think is widely regarded as a, you 
know, a dangerous carcinogen.
    Mr. Whitfield. Yeah.
    Ms. Greer. It is not to say though that we don't think that 
there are critical uses of toxic chemicals that will need to 
remain on the market.
    Mr. Whitfield. Right.
    Ms. Greer. And so, you know, there needs to be an exit ramp 
for those uses so that we don't jam ourselves into something 
unreasonable, in the common language, not in the legal 
language.
    Mr. Whitfield. Okay, all right, and I think we all agree on 
that, I mean, hopefully, that there are chemicals that are 
quite valuable and yet there is some dangers to most chemicals 
and, hopefully, we could when we rewrite this Act can come up 
with a balanced approach that would benefit everyone.
    Another question I had for you, maybe, Mr. Jones, or anyone 
else who wants to talk about it. The Toxic Release Inventory 
Program which I guess came about because of the Community Right 
To Know Act, and it is my understanding that EPA in the Toxic 
Release Inventory Program right now has something like 600 and 
some chemicals that are on that list. How are those chemicals 
selected?
    Mr. Jones. Largely, based on their toxicity, although there 
is a special way in which PBTs can be identified and actually 
have a lower reporting threshold then chemicals that are not 
PBTs.
    Mr. Whitfield. Yeah and who actually makes that decision?
    Mr. Jones. They are made by the administrator of the 
Environmental Protection Agency, and over the last 15 years 
multiple, at multiple points in time different administrators 
have made that determination.
    Mr. Whitfield. Yeah but you do have some lab somewhere 
doing some testing on animals to decide, is that correct?
    Mr. Jones. There is a wide range of toxicity information 
and sources of information. Some of it is generated by 
manufacturers. Some of it is generated by universities and some 
of it is generated at EPA laboratories.
    Mr. Whitfield. Yeah, well, you know, I am no expert in this 
but last night I was sitting around and I was looking at this 
inventory list, and I just looked down this list of 600 
chemicals and I came across one called metiran, m-e-t-i-r-a-n, 
which maybe you call are familiar with but I wasn't. And it is 
on the list of Communities Right to Know and yet when I read 
that toxicity part of the study, it says when rats were fed a 
thousand milligrams diet of metiran for 2 weeks, 5 days per 
week, no symptoms of illness were produced. No ill effect was 
observed in dogs that received 45 milligrams daily of this 
fungicide for 90 days, or 7.5 milligrams daily for almost 2 
years. There were no negative effects. So I was just curious, 
how is it determined that this will be on the list of something 
that communities need to know about?
    Mr. Jones. I would need to go back and get some more 
information around that. I know metiran is a registered 
pesticide active ingredient so there would be a wide number of 
toxicity studies that have been generated to support its 
registration so I should be able to answer that question.
    Mr. Whitfield. Yeah, well, then do any--Dr. Greer, do you 
have any comment about that or you, Mr. Sturdevant? I mean, 
like I said, I am not a scientist and but it seems to me that 
if you give this particular substance--most of the decisions 
are made based on the animal studies is my understanding, and 
if you give animals that much and yet you decide to put it on 
there, I just wonder what is the real standard for deciding? 
What is the precise standard to make that decision?
    Ms. Greer. I also don't happen to know about that chemical 
but like Mr. Jones, I mean I know the criteria that the agency 
uses to get those chemicals on the list so there is something 
here that doesn't meet the eye, and I would have to go back and 
then submit for the record what I think is the rationale for 
having that chemical on the Toxic Release Inventory.
    Mr. Whitfield. Yeah, well, is there--if you were at a 
Rotary Club in your hometown and you were explaining the 
criteria for placing a chemical on this inventory list, how 
would you in layman's term explain it to them?
    Ms. Greer. Would you like me to?
    Mr. Whitfield. Yes.
    Ms. Greer. I would--in layman's terms I would say they are 
chemicals that can harm human health or the environment.
    Mr. Whitfield. They can. Now, that is pretty vague it would 
seem but that is what you would say, is that correct?
    Okay, I am sorry.
    Mr. Rush. I am going to recognize the gentleman from 
Maryland, Mr. Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    And thank you, Dr. Greer, for your answer just then because 
I am actually speaking to a Rotary Club this evening. If I get 
any questions like that, I will know what to say.
    Ms. Greer. I will come up with a second verb for you.
    Mr. Sarbanes. I wanted to go right to this discussion you 
have been having about sort of rapid action versus study 
because I imagine that will be an important part of our 
discussion on the reauthorization and will probably lead to 
some tension of perspectives, as well. What do you have in mind 
when you talk about rapid action, and maybe you could speak to 
a category of chemicals that we could view as already having 
been sort of research tested and understood ad nauseam in terms 
of the toxic impact they have, using whatever combination of 
standards is appropriate, that we could really just get moving 
on in terms of this rapid action? So talk about the category 
and even some of the particular chemicals that you would 
identify for that rapid action and then what the rapid action 
would be that you envision?
    Ms. Greer. Well, in our opinion, there are several dozen 
chemicals, maybe two or three dozen chemicals, not hundreds or 
thousands or chemicals, but a relatively speaking handful of 
chemicals that have been extremely well-studied. They have been 
studied, many of these chemicals, literally for decades. In the 
case of a chemical like dioxin, you know, there are file 
cabinet rooms full of studies on these chemicals. It is not 
most chemicals, Mr. Sarbanes, I mean most chemicals we don't 
have that amount of study, and so there are really two 
categories in my mind. The ones that have been extremely well 
studied, I would put a chemical like TCE on that, a chemical 
like formaldehyde on that, you know, that we have quite a bit 
of information. And then the second category would be some of 
the PBTs, some of the chemicals that we have known for years 
are, as one of the other testifiers said, you know, the genie 
is out of the bottle and they have come out and we are now in a 
legacy mode of trying to do the cleanup. And for those two 
categories of chemicals, I would submit that we really don't 
need more study. What we really need is an action plan to look 
at what the uses are and to phase-out or reduce the uses and 
exposures to those chemicals because one more study is not 
going to make the difference and we already have enough 
evidence to know that at certain concentrations they will cause 
problems. So would be the relative minority of chemicals 
relatively short list but ones that I think are very ripe for 
action given how long they have been already studied.
    Mr. Sarbanes. Would you imagine identifying those 
explicitly in a reauthorized statute?
    Ms. Greer. Based on my experience of watching EPA over the 
years, we learned in other statutes then when that we made 
lists of chemicals it led to much faster action because the 
agency took a much, much longer time left to their own devices 
to do it. So based on experience with implementation really, I 
would strongly recommend that we put the list into the statute, 
yes.
    Mr. Sarbanes. When you look internationally at some of 
these other conventions and protocols and regulatory regimes 
that exist, do you see that approach in place?
    Ms. Greer. Yes, that is right. When you look, for example, 
at the Stockholm Treaty, at the POPs Treaty, those chemicals 
were named and continue to be named in an ongoing process of 
adding more chemicals to the list.
    Mr. Sarbanes. And then, Mr. Sturdevant, I was just 
intrigued by the approach you took. What was the pushback you 
were getting? Who, you know, you described various parties 
showing up in the State capitol. Describe a little bit why they 
were so resistant and where they are now in that you have taken 
steps. I mean it doesn't appear that the economy of Washington 
State has collapsed due to the measures you have taken so maybe 
you could just talk about that a little bit.
    Mr. Sturdevant. Yeah, well, the, you know, in fact, the 
when we identified an alternative to this flame retardant and 
some of the same companies that made the PBDE flame retardants 
also made the alternatives so there wasn't anything really in 
terms of an economic impact in terms of jobs. There wasn't any 
impact in terms of flame retardants. It was very interesting 
and, you know, it felt a little bit like a David and Goliath 
fight really with the resources that came to bear, very 
sophisticated resources there. And, you know, as the evidence 
continued to sort of go our way, the arguments changed and, you 
know, in the end it there was an attempt to put a deal together 
where okay, so if we are going to go ahead and take action on 
PBDEs, let us exchange that for greater fire safety standards 
in the State on other products basically sort of driving a new 
market. So, you know, I think that it was so about money, and 
it was about also I think setting a precedent, you know, that 
the first, this. It was a hard fight because it was the first 
ban on that product in the country and others followed and it 
was all about whether that first domino was going to topple or 
not.
    Mr. Sarbanes. Thank you.
    Mr. Rush. I would like to ask before you respond we are 
going to take an additional 3 minutes for additional questions.
    As you can see, we know that the great gulf that we are 
going to have to cross for TSCA reauthorization is the bulk of 
chemicals on that, you know, either abandon or come up with 
another process of identifying that would include a ban in the 
legislation.
    And I would like to get your response, first of all, do you 
think that these chemicals should be banned in the next, 
chemicals specifically banned in the next and if you would take 
a moment or two to support your answer, your rationale and we 
will start with Mr. Jones.
    Mr. Jones. Well, the agency and the Administration has 
articulated a number of principles. There are five principles 
in all. The first principle is the chemical should be reviewed 
against the safety standard that are based on sound science and 
reflect risk-based criteria protection of human health and the 
environment. That is probably the principle that most is 
relevant to the question of should the statute itself ban 
chemicals. If it is done in a risk-based manner I think that 
might be consistent with the principle. If it is just a it just 
names them and bans them with any risk-based criteria related 
to that it would seem to be inconsistent with that principle.
    Mr. Rush. Dr. Thompson, same question.
    Mr. Thompson. I think I would just echo those comments and 
just I would note that internationally under the Stockholm 
Convention, we do have a scientific review committee that 
really looks, you know, at these issues very closely, analyzes 
it, looks at the risks associated with the chemicals and they 
come forward with recommendations to the countries that 
participate in the agreements in terms of whether a chemical 
should, in fact, be banned or should it be restricted in some 
way, and whether exemptions should exist. So just to echo the 
comments from my colleague from EPA and note that I do think a 
very, there is sort of a very similar type of a procedure that 
we have internationally to actualize quite a similar outcome, I 
think. Thank you.
    Mr. Rush. Mr. Sturdevant.
    Mr. Sturdevant. I certainly don't have the expertise to say 
what chemicals should be on that early action list but I would 
say that you need to look at a couple things. One is so how bad 
is it and if it is bad enough then I think bans are justified. 
The other question is are there alternatives and as Dr. Greer 
said is that use really important or necessary. So I think it 
is you have to look at both what it is providing and are there 
alternatives and if there are alternatives that are easily 
available, and I think it makes that decision a lot easier to 
make.
    Mr. Rush. Dr. Greer.
    Ms. Greer. And I will be quick since I have sort of already 
answered this question.
    Mr. Rush. Right.
    Ms. Greer. I do think that there are a number of chemicals 
that have a mature docket, so to speak, a Texas new docket that 
is quite complete and that statutory list would be helpful to 
get fast action on those chemicals as we reauthorize TSCA.
    Mr. Rush. Dr. Cowan-Ellsberry.
    Ms. Cowan-Ellsberry. When I worked within the UN on the 
protocol, that was one of the things that we did emphasize is 
that it needed to be risk-based, and I think I would also 
emphasize that any alternatives also need to be assessed 
because we don't want to move in precipitously to something 
that could be worse. And having multiple management options and 
phasing them in as Dr. Greer said, getting rid of alternatives 
where they are maybe not necessary, would probably be an easy 
way to go.
    Mr. Rush. Dr. Adams.
    Mr. Adams. Yes, thank you.
    Let me draw upon the experiences currently in progress in 
Europe at the moment under the REACH legislation. Under that 
process, chemicals such as Dr. Greer has mentioned and ones 
that are well-known have been identified and put on a list for 
further review, not further study. The point being is that the 
studies are done. They have looked at the toxicology. They have 
determined them to be hazardous and potentially causing risk 
but there is then a careful review of the use of the substance, 
its release to the environment and the cost benefit. So I would 
favor rather that kind of approach rather than just 
prescriptively writing substances into the legislation.
    Mr. Rush. Thank you.
    The chair now recognizes Mr. Whitfield for 3 minutes.
    Mr. Whitfield. Yeah, I would ask Dr. Greer what do you say 
to what Dr. Adams just said there? Do you agree with him or 
not?
    Ms. Greer. I think, well, you know, it is interesting. I 
think that what the question really comes down to who is in the 
best position to make some of those evaluations and decisions? 
Are there some chemicals that the Congress can take a look at 
and in discussion with effected parties and with EPA say, you 
know, okay this is a list. This is the chemicals. I think that 
we can do that and that given how long it has taken the agency 
which I might add really every time they can tentative 
decision, you know, is plagued by comments and delay, et 
cetera, et cetera, I think we could make faster work for them 
by looking at some of those chemicals so I don't think I have a 
disagreement at all in concept. I think the question on the 
table for us as we move forward for TSCA reauthorization is 
where are those conversations taking place and lets keep an eye 
on how can we really make this system work. What would be the 
best solution to make the system work?
    Mr. Whitfield. Now, Dr. Adams, I know in your testimony you 
said that a hard and fast PBT criteria would ignore scientific 
nuances like how a chemical or metal reacts in a particular 
environment or based upon climate or hydrology and other 
factors. So you would not want to just see a list to be banned 
by Congress, I am assuming?
    Mr. Adams. Well, I think there are a few chemicals. If you 
consider the POPs Treaty or the POPs Convention, for example, 
you will see some substances in there that are identified as 
being extremely hazardous and not to be traded in commerce.
    Mr. Whitfield. So there are some things we could easily 
mention.
    Mr. Adams. There are a few things out there that are kind 
of no-brainers, if you will, okay and why not. I mean and many 
of them are PCBs that are not manufactured anymore so it is an 
easy one.
    Mr. Whitfield. Right.
    Mr. Adams. But there are some others that could be an easy 
choice but by and large, I think we want to consider the uses 
and we want to consider the risk of substances.
    Mr. Whitfield. Right, now, could you give me a couple of 
examples that there would be universal agreement on?
    Mr. Adams. Well, if you look at many of the chlorinated 
pesticides that were used in the '60s and '70s, so that is 
Lindane, Aldrin, Methoxychlor, DDT, DDE, so a number of those 
kinds of compounds are recognized internationally as being 
unacceptable.
    Mr. Whitfield. Now, let me just ask one other question that 
maybe someone could respond to. We have heard a lot of 
discussion today about implementation legislation in order to 
abide by some of these treaties. Can someone just give me a 
quick synopsis of what we are talking about there? Mr. Jones, 
do you want to do that or Dr. Thompson?
    Mr. Thompson. I could give you maybe some brief highlights 
I think of what is needed. I think in particular there are a 
number of provisions in the agreements that call for parties to 
do specific things. Under the Stockholm Convention, for 
example, we would have difficulties preventing the manufacture 
or production of chemicals for export and use in other 
countries. There are a number of other provisions that are 
related to both export controls and import controls for the 
different agreements that current domestic authorities don't 
really cover. And finally, there are some waste-related 
provisions to prevent the reuse and recycle of persistent, 
organic pollutants that we would need some tidying up 
domestically to implement those obligations.
    Mr. Whitfield. Okay and how many PBTs have actually been 
banned under TSCA since its inception? Have any?
    Mr. Jones. The most notable one is the PCBs were banned by 
statute.
    Mr. Whitfield. By statute, yeah.
    Mr. Jones. The agency has only taken five other sort of 
major regulatory bans since the statute was implemented and I 
am not sure if any of them are PBTs.
    Mr. Whitfield. Okay, thank you.
    Thank you.
    Mr. Rush. The Chair recognizes Mr. Sarbanes for an 
additional 3 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I am just thinking about the different standards by which 
one could judge our efforts to limit some of these toxic 
chemicals and their use and our exposure to them and so forth, 
and there are all kinds of standards. I mean there is the legal 
standard that would be used in a tort case, for example. There 
is the standard that the agency sets which can sometimes 
interfere with or enhance the legal standard where we use to 
protect or create a higher legal standard. And I guess there is 
an industry burden standard that operates in our thinking but 
the one that I am thinking about the most is what I would just 
call the kind of member of public consumer commonsense 
standard.
    There are a lot of situations in which these other 
standards I mentioned from the standpoint of the consumer, if 
they are more aggressive, they are seen as unreasonable, in 
other words consumers will say well, you know, that is going a 
little bit too far. But in this context, it is hard for me to 
imagine that a member of the public understanding some of the 
risks that are involved here would not want to adopt the most 
aggressive standard relative to all these others that was 
available. And, you know, I imagine people looking back on a 
hearing like this, we are on a reauthorization of TSCA that 
doesn't take this step of identifying obviously dangerous 
chemicals out of the gate, and putting in place a rapid action 
strategy. I imagine the reaction of the public would be to say, 
you know, excuse me, what didn't you understand? What more did 
you need to know to take aggressive steps to address this 
problem? So going forward, I am going to be pretty strong on 
the notion that we need to get out of the gate quickly with 
respect to those chemicals, that category of chemicals where we 
have a lot of knowledge at our fingertips.
    My question was this, describe what you think will happen 
and it sounds like it may already have begun when our standards 
fall further and further behind the standards that are being 
imposed other places. Do we become a dumping ground? I mean, 
what that gap has got to produce some significant and harmful 
consequences to it and if anybody would like to speak to that, 
I would welcome it.
    Yes, Dr. Greer.
    Ms. Greer. Yeah, I think there are three things that you 
see and we have actually already seen all three of them. The 
first is that we could become a dumping ground. We used to 
worry about when the United States took action on a chemical 
that was unsafe that maybe that chemical would end up in the 
Third World, in the developing world and that that would be, 
you know, something that we would feel morally responsible for 
because we had decided it wasn't safe enough for us but it 
could go to Africa or some place where that government was not 
up-to-speed on that. Well, now we face the real prospect that 
Europe will ban certain things from products and they will be 
okay here in the United States because Europe is ahead of our 
system and that we, the United States of America could become a 
dumping ground for things that are not safe enough for Europe.
    The other two things that you will see, I think and have 
already seen is that States will start to take action where 
they have problems, either because they have hotspots or 
problems in certain rivers or in certain communities, or 
because their citizens are particularly upset and sensitized to 
this. And we will get the sort of patchwork regulation that is 
not really good for industry because different States have 
different systems and it all gets very confusing.
    And the third that you will see, which I think we are 
already seeing, is what we call retail regulation which is that 
some in the private sector will say we don't want to sell this. 
This is what happened with BPA and plastic bottles in baby 
bottles where they didn't want to wait for the government to 
take action because their market was being threatened by the 
fact that customers didn't want BPA in their baby bottles, and 
so they took action without the government for their own 
purposes, for their own business purposes so that they could 
say to their customers, we have our own systems in place to 
make things safe for you, and you can feel happy to come shop 
here and buy those things, and that is sort of random. It is a 
chemical of the weak system that we think if we had a well-
functioning government system it could be more orderly, more 
systematic, et cetera, et cetera. So I think those are the 
three consequences that jump to my mind immediately and I 
actually think we are seeing all three of them already because, 
of course, the system has been broken for some time now.
    Mr. Sarbanes. Thank you.
    Mr. Rush. The chair thanks the gentleman.
    The chair wants to make sure that you care about our 
purposes and our continuing work, and the focus of our 
continuing work, and this will be on reforming TSCA, and not 
necessarily reauthorizing TSCA. We want to make sure we are 
clear about that. We want to reform TSCA and it means a lot, 
you know, and we don't have the right idea of how we are 
working on it and we might wind up someplace else and we 
certainly can't afford to wind up someplace else. We need to 
reform TSCA.
    With that said, I want to again thank the witnesses for 
sacrificing your invaluable time with us. You have been very 
informative and very enlightening toward this committee, 
subcommittee, and I for one, feel much more empowered and 
enlightened because of your comments and your answers to the 
questions. I want to thank you again for being here with us.
    And that said, without objection, I would like to submit 
into the record some supporting action on PBTs from the Safer 
Chemicals Healthy Families, they sent letters. The 
Environmental Working Group has sent letters. The National 
Council of Churches has sent letters. The Pesticide Action 
Network of North America, we heard from them in the form of 
letters and other communications, and the American Public 
Health Association. It has already been ordered that the 
American Chemistry Council letter be included, and we have a 
letter also from the National Petrochemical and Refiners 
Association. And lastly the chairman of the full committee, 
Chairman Waxman, has an opening statement that we would also 
enter into the record without objection. And so without 
objection, so ordered and these and other associated matters be 
entered into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Rush. The chairman would also like to keep the record 
open for another 2 weeks and would ask the witnesses if there 
are any members of the subcommittee who want to ask questions 
in writing, if you would get to you and if you would in a 
timely manner as promptly as you can, respond to those 
questions in writing. It would certainly be an enormous help to 
this subcommittee. Thank you very much.
    And the subcommittee now stands adjourned.
    [Whereupon, at 12:54 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
